   October 03, 2002




Acquisition
Controls for the DoD Aviation
Into-Plane Reimbursement Card
(D-2003-003)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil;
  or by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

AFB                   Air Force Base
AFWCF                 Air Force Working Capital Fund
AIR                   Aviation Into-Plane Reimbursement
AVEDS                 Automated Voucher Examining and Disbursing System
DESC                  Defense Energy Support Center
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
FBO                   Fixed Base Operator
GAO                   General Accounting Office
OMB                   Office of Management and Budget
         Office of the Inspector General of the Department of Defense
Report No. D-2003-003                                                   October 3, 2002
  (Project No. D2002LG-0006)

                         Controls for the DoD Aviation
                        Into-Plane Reimbursement Card

                               Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are authorized to use an Aviation Into-Plane Reimbursement Card or to supervise any
aspect of the Aviation Into-Plane Reimbursement Card program should read this report.
The report discusses how to maintain a process that would validate AIR Card
transactions to monthly bills and prevent waste in this program.

Background. The Office of the Secretary of Defense issued a memorandum regarding
the Department of Defense Charge Card Programs on June 21, 2002. That memorandum
discusses the fraud and misuse of Government cards. The memorandum directs that all
DoD Components provide the Under Secretary of Defense (Comptroller) a report of
actions taken that resolve the current cases of charge card misuse, abuse, and
delinquencies and preclude future cases from occurring. Further, the memorandum
requests that the Inspector General of the Department of Defense coordinate audits and
investigations of charge card programs to ensure fraudulent and inappropriate activities
are addressed. The DoD Charge Card Task Force, formed in March 2002 by the Under
Secretary of Defense (Comptroller), issued a report on June 27, 2002, regarding its
evaluation of the credit card programs and offering 25 recommendations for
improvement of the programs.

The Government Aviation Into-Plane Reimbursement Card is a commercially accepted
credit card that DoD uses to purchase aviation fuel, fuel-related supplies, and ground
handling services from commercial airport Fixed Base Operators. Kropp Holdings,
Incorporated, doing business as AVCARD, is the credit card processor under contract for
the Aviation Into-Plane Reimbursement Card. The Aviation Into-Plane Reimbursement
Card is accepted at Defense Energy Support Center into-plane contract locations and
locations that do not have a contract with the Defense Energy Support Center. The
Defense Energy Support Center negotiates and manages the Aviation Into-Plane
Reimbursement Card contract as well as implements future changes of the transaction
processing procedures. In FY 2001 the card was used to make $222 million in purchases.
Results. The Defense Logistics Agency, the Defense Energy Support Center, and the
Services needed to improve management controls and establish written policies that
define the methods and responsibilities for using the Aviation Into-Plane Reimbursement
Card. Controls include review of contractor performance, program oversight, system
edit-checks, and training. Controls should ensure that DoD Components have an
adequate process in place that would match Aviation Into-Plane Reimbursement Card
receipts for fuel and ground services to monthly bills, preclude duplicate payments, and
recoup fuel and ground service taxes from which DoD was exempt. Reviews of 17 sites
judgmentally selected showed that 69 percent of 24,959 Aviation Into-Plane
Reimbursement Card receipts valued at $37.3 million were never verified to monthly
bills. Of the units reviewed, only three Navy units were doing an adequate job of
matching receipts to monthly bills. The Defense Energy Support Center, the Defense
Finance and Accounting Service and the Services need to initiate action to recover
$8.3 million of duplicate payments and tax overpayments. For details of the audit results
and recommendations, see the Finding section of the report.

Management Comments and Audit Response. The Acting Director for Sustainment,
Office of the Army Deputy Chief of Staff for Logistics; the Deputy Assistant Secretary of
the Navy Planning, Programming, and Resources; and the Assistant Deputy Chief of
Staff for Installations and Logistics, Air Force Headquarters, agreed with most of the
recommendations and were initiating corrective actions. Comments were not received
from the Marine Corps. The Director, Logistics Operations, Defense Logistics Agency,
stated that adequate regulations and controls currently existed and that no specific
additional instruction was warranted. The Director agreed to implement an annual site
visit to the contractor facility to monitor performance. The Director stated that the
Defense Energy Support Center could publish only overarching interim guidelines and
that the operations and missions of the Services limited totally standardizing Aviation
Into-Plane Reimbursement Card training. The Director further stated that the Automated
Voucher Examining and Disbursing System already incorporates a number of edits
designed to preclude duplicate payments and agreed to take steps to recover tax
overpayments. The Defense Finance and Accounting Service, Deputy Director,
Commercial Pay Services agreed to coordinate with Defense Energy Support Center to
expand the edit check process in the Automated Voucher Examining and Disbursing
System and to develop specific criteria to identify duplicate transactions.

Management comments were partially responsive but require more detail. Specifically,
the Army and the Navy need to provide further details on how they plan to recover tax
overpayments and the Marine Corps needs to provide comments on the final report. We
do not consider the Defense Logistics Agency comments responsive. In general, the
Director believes that adequate regulations and controls currently exist and that the issues
identified in the report are not the responsibility of the Defense Energy Support Center.
We disagree with that assertion. The Defense Energy Support Center, as the program
manager of the Aviation Into-Plane Reimbursement Card, needs to provide solutions for
the issues identified in the report. Specifically, the general guidance that exists needs to
be updated to include defining responsibilities and provide detailed processes for
collecting and turning in receipts, validating interfund charges and ground service
transactions. In addition, the Defense Energy Support Center needs to establish interim
procedures until final guidance is published in accordance with the recommendations.
We request that the Army, the Navy, the Marine Corps, and the Defense Logistics
Agency provide comments to the final report by November 18, 2002. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete comments.


                                             ii
Table of Contents

Executive Summary                                               i

Background                                                     1

Objectives                                                     3

Finding
     Controls Over the DoD Aviation Into-Plane Reimbursement
       Card Program                                            4

Appendixes
     A. Scope and Methodology                                  25
          Management Control Program Review                    27
          Prior Coverage                                       28
     B. Army AVCARD Payment Process                            29
     C. Navy AVCARD Payment Process                            32
     D. Air Force AVCARD Payment Process                       35
     E. Sample Results                                         38
     F. Taxes Paid on AVCARD Charges                           42
     G. Report Distribution                                    44

Management Comments
     Department of the Army                                    47
     Department of the Navy                                    48
     Department of the Air Force                               51
     Defense Logistics Agency                                  53
     Defense Finance and Accounting Service                    63
Background
    The Office of the Secretary of Defense issued a memorandum regarding the
    Department of Defense Charge Card Programs on June 21, 2002. That
    memorandum discusses the fraud and misuse of Government cards. The
    memorandum directs that all DoD Components provide the Under Secretary of
    Defense (Comptroller) a report of actions taken that resolve the current cases of
    charge card misuse, abuse, and delinquencies and preclude future cases from
    occurring. Further, the memorandum requests that the Inspector General of the
    Department of Defense coordinate audits and investigations of charge card
    programs to ensure fraudulent and inappropriate activities are addressed. The
    DoD Charge Card Task Force, formed in March 2002 by the Under Secretary of
    Defense (Comptroller), issued a report on June 27, 2002, regarding its evaluation
    of the credit card programs and offering 25 recommendations for improvement of
    the programs.

    AIR Card. The Government Aviation Into-Plane Reimbursement (AIR) Card is
    a commercially accepted credit card that DoD uses to purchase aviation fuel,
    fuel-related supplies, and ground handling services from commercial airport
    Fixed Base Operators (FBOs). Kropp Holdings, Incorporated, doing business as
    AVCARD,1 is the credit card processor under contract for the AIR Card. The
    AIR Card is accepted at the Defense Energy Support Center (DESC) into-plane2
    contract locations and locations that do not have an into-plane contract with
    DESC. At FBOs that do not have an into-plane contract with DESC, the
    AIR Card is used in place of local purchase procedures and provides discounts
    from the commercial price for fuel. DESC negotiates and manages the AIR Card
    contract as well as implements future changes of the transaction processing
    procedures.

    Issuance of the AIR Card. On January 23, 1997, DESC awarded the AIR Card
    contract to AVCARD for an 8-month test period, which ended September 30,
    1997, with 2 option years. During the test period, AVCARD was responsible for
    issuing AIR Cards to participating military units,3 providing computer system
    training, and processing AIR Card transactions. During that test period, the


    1
    The contractor will be referred to as AVCARD for the remainder of the report.
    2
    Into-plane refers to aviation fuels delivered into aircraft at commercial airports worldwide. DESC
     awards into-plane contracts worldwide to suppliers for estimated quantities of fuel based on
     military service requests. A minimum annual estimated purchase of 15,000 gallons is required
     for a commercial location to establish a DESC into-plane contract. DESC into-plane contracts
     are used as the source of supply where no military fuel support is available (including at
     commercial locations) and provides fuel at the lowest cost to the Government, ensures product
     availability, and requires that Government quality assurance and safety standards be met for
     product and servicing.
    3
    The terms unit(s) used throughout the report refers to the various customer organizations
    responsible for AIR Card purchases.



                                               1
contractor issued approximately 500 AIR Cards to selected military units intended
for purchasing ground handling services and fuel at those FBOs not holding an
into-plane contract with DESC.

On September 29, 1997, DESC exercised option year one of the contract, which
extended the contract period to September 30, 1998. Option year one required
expansion of the use of the AIR Card throughout DoD as well as interface with
the DESC Fuels Automated System4 for invoicing of purchases at those FBOs
that did not have an into-plane contract with DESC. During option year one, the
number of AIR Cards distributed throughout DoD increased from 500 to 15,000.
Option year two of the contract was exercised October 1, 1998. That option
expanded distribution and use of the AIR Cards to all Federal civilian agencies
while maintaining the same transaction processing services as previous years.
Option year two also expanded coverage of the AIR Card program to include
purchases at DESC into-plane contract locations. On October 8, 1999, DESC
awarded a second contract to AVCARD for the AIR Card with 3 option years.
The performance period for the second contract began January 1, 2000, and ended
September 30, 2001. The first option year, exercised on October 1, 2001,
extended the contract to September 30, 2002.5
Using the AIR Card. DESC into-plane contract locations are required to accept
the AIR Card for any contract fuel deliveries. In addition, ground services can be
purchased, if an agreement is in place with AVCARD, at those FBOs that do not
have an into-plane contract with DESC. When the aircraft lands at a commercial
airport with a request for fuel or ground service support, the aircrew presents the
AIR Card to the supplier. The supplier records any sales onto a commercial
delivery ticket. The aircrew signs for the purchase and retains a copy of the
signed receipt. When into-plane contract fuel (contract fuel) is purchased, the
Defense Finance and Accounting Service (DFAS) is responsible for making
payments directly to the contract fuel provider citing the Defense Working
Capital fund. When either non-into-plane contract fuel (non-contract fuel) or
ground services are purchased, AVCARD processes the transactions and directly
reimburses the provider. AVCARD issues periodic billing statements to the
Services for payment.

Using the AIR Card involves DESC, DFAS, and the Service Petroleum Offices.
DoD Manual 4140.25-M, “DoD Management of Bulk Petroleum Products,
Natural Gas, and Coal Acquisition and Technology,” June 22, 1994, states that
the Military Services established the Army Petroleum Center, the Naval
Petroleum Office, and the Air Force Petroleum Office as the Service Control
Points for central management function.


4
    The Fuels Automated System is an Automated Information System designed to support DESC
    and the Military Services in performing their responsibilities in fuel management and
    distribution. The Fuels Automated System provides point of sale data collection, inventory
    control, finance and accounting, procurement, and facilities management.
5
    Portions of background information derived from IG DoD Report No. 98-189, “Procuring Fuel
    and Ground Handling Services at Commercial Airports,” August 18, 1998.



                                             2
           Defense Logistics Agency. The Defense Logistics Agency (DLA)
    provides policy and guidance as well as assigns functional responsibilities for
    bulk petroleum products. DLA prepared DOD Manual 4140.25-M, which states
    that DESC is the integrated manager for bulk petroleum products and associated
    storage facilities. DESC is responsible for administering DESC contracts and
    associated contractor-Government relationships. DESC has procurement
    responsibility for petroleum contracts in DoD.

           DFAS. DoD Directive 5118.5, “DFAS,” November 26, 1990, states that
    DFAS responsibilities and functions include directing and enforcing finance and
    accounting requirements, systems, and functions. The Directive requires that
    DFAS provide finance and accounting services to DoD Components and other
    Federal activities, as designated by the DoD Comptroller. For the purposes of the
    AIR Card program, DFAS Columbus provided finance and accounting services to
    DESC for contract fuel. Other local DFAS offices provided finance and
    accounting services to the Military Departments for non-contract fuel and ground
    services.

            Army Petroleum Center. The Army Petroleum Center, along with the
    Army Deputy Chief of Staff for Logistics, prepares and disseminates Army
    petroleum policy. The Army Petroleum Center also conducts Army laboratory
    certification programs and manages Army aviation and fleet credit card programs.

            Naval Petroleum Office. The Naval Petroleum Office is the logistics
    integrator and supply chain manager for all of the Navy and Marine Corps
    petroleum products. The Naval Petroleum Office also issues the AIR Card
    program policies and procedures for jet fuel purchases at commercial air facilities
    within the Navy.

            Air Force Petroleum Office. The Air Force Petroleum Office establishes
    Air Force fuel policies and procedures for operational forces. The Air Force
    Petroleum Office interacts with DESC and other DLA agencies to represent and
    advocate Air Force interests and programs, and establishes standard prices as well
    as standardization of fuel quality documents.


Objectives
    The audit objective was to evaluate the use of the AIR Card and the controls over
    the processing of AIR Card payments. We also reviewed the management control
    program as it related to the overall objective. See Appendix A for a discussion of
    the audit scope and methodology, the review of the management control program,
    and prior coverage.




                                         3
                Controls Over the DoD Aviation
                Into-Plane Reimbursement Card
                Program
                The DoD Components did not have an adequate process in place that
                would match AIR Card receipts for fuel and ground services to monthly
                bills, preclude duplicate payments, and recoup fuel and ground service
                taxes from which DoD was exempt. Reviews of 17 sites judgmentally
                selected showed that 69 percent1 of 24,959 AIR Card receipts valued at
                $37.3 million were never verified to monthly bills. Of the units reviewed,
                only three Navy units were doing an adequate job of matching receipts to
                monthly bills. Existing guidance was incomplete, outdated, or not
                followed for controls over matching receipts to monthly bills and
                recoupment of taxes, resulting in the Service’s lack of an adequate
                process. Further, neither DLA, DESC, nor the Services provided standard
                training for the AIR Card program. DFAS lacked adequate edits and
                controls to preclude paying twice for the same purchase. As a result,
                increased risk existed that the majority of AIR Card fuel and ground
                service charges valued at $222.4 million were paid during FY 2001
                without assurance that the charges were legitimate. In addition, DoD
                overpaid FBOs during FY 2001 at least $495,982 in duplicate
                transactions. Also, the Services paid about $7.8 million in FY 1999
                through FY 2001 for taxes, from which DoD may have been exempt.


Policies and Procedures
     The purpose of internal controls is to determine a program’s efficiency and
     effectiveness and the degree to which controls help identify and address major
     risks for fraud, waste, abuse, and mismanagement. The following Office of
     Management and Budget (OMB), General Accounting Office (GAO), and DoD
     policies prescribe procedures for applying controls that safeguard assets prior to
     issuing payments.

     OMB Circulars. OMB Circular A-123, “Management Accountability and
     Control,” June 21, 1995 (OMB Circular A-123), states that each agency head
     must establish controls that reasonably ensure that assets are safeguarded against
     waste, loss, and abuse and that all revenues and expenditures are properly
     recorded and accounted for. The circular further states that Government
     management control standards shall include ensuring that appropriate authority,
     responsibility, and accountability are defined and delegated.

     GAO Manual. GAO “Policy and Procedures Manual,” May 1993, title 7,
     chapter 6, section 6.2 (GAO Policy and Procedures Manual) states that
     disbursements shall be supported by basic payment documents either in hard copy

     1
         Judgment sample percentage does not generalize to universe.



                                                  4
or machine-readable source records that shall include purchase orders and
receiving reports. Chapter 6 further states that effective control over
disbursements ordinarily requires the prepayment examination and approval
before vouchers are validated for payment.

DoD Regulation. DoD Regulation 7000.14-R, “Financial Management
Regulation,” February 1996, volume 6, chapter 2 defines the role and
responsibility of DFAS and its customers for preparing financial reports as well as
how to treat transactions associated with the financial reports. The Regulation
states that customer organizations are responsible for the accuracy, completeness,
timeliness, and documentation of the data generated for input into the finance and
accounting systems and any financial reports. It emphasizes that customer
organizations must ensure that the amounts in the DFAS financial report are
consistent and reconcilable with management reports that the customer
organizations prepared. The Regulation also requires customer organizations to
validate source data associated with financial transactions.

Army Regulation. The Army Deputy Chief of Staff for Logistics is responsible
for supply policy. Army Regulation 710-2, “Inventory Management Supply
Policy Below the Wholesale Level,” October 31, 1997, provides guidance on the
purchase of aviation products. The Regulation was issued prior to the AIR Card
and simply provides guidance on using Government credit cards for aviation fuel
purchases. The Regulation also states that the using unit will submit with the
monthly fuel report a copy of any credit card slip along with a written explanation
for any missing slips. It further states that the using unit will review credit
purchases to ensure that the quantity and fuel type are compatible with the vehicle
used and that the dates of the purchase correspond with dispatch records. In
addition, the Regulation requires that at least twice annually, the using unit
conduct a review or validation of credit card transaction against the commercial
fuel billings. The Regulation requires the aircrew in charge of the aircraft to
ensure, immediately upon return to the unit, that the delivery slips for any
purchases made are turned in to the responsible supply officer.

Navy Instruction. The Chief of Naval Operations had not issued Navy and
Marine Corps guidance for AIR Card management. However, the Commander,
Naval Air Atlantic Instruction 7310.1W, “Financial Regulations Concerning
Flight Operations Funds,” March 3, 1999, provides specific guidance on
procurement of fuel and ground services with the AIR Card. The Instruction
requires that the aircrew review the purchase receipt to ensure the information is
complete and correct. The aircrew must also sign and keep a copy of the receipt.
The aircrew is required to turn the receipt in to the command supply or materiel
control officer. The Instruction states that food, lodging, and maintenance
requirements are not authorized with the AIR Card. The Instruction also provides
payment and billing instructions that require units ensure certification of payment
includes verification that the material or services have been received, inspected,
and accepted. Any discrepancy is required to be identified to the Naval
Petroleum Office.

Navy and Marine Corps Desk Guide. The Navy and Marine Corps AIR Card
Desk Guide, October 2000, was issued by the Naval Petroleum Office. The guide
provides standard operating procedures and was established to train and assist


                                     5
    personnel on how to the use the AIR Card. The guide states that the aircrew’s
    copy of the receipt establishes the obligation for the fuel or ground service
    purchase. The guide requires that, prior to certifying the invoice for payment, the
    using unit verify the information on the invoice with the aircrew’s copy of the
    fuel receipt.

    Air Force Instruction. The Air Force Deputy Chief of Staff, Installations and
    Logistics is responsible for supply policy. Air Force Instruction 23-202, “Buying
    Petroleum Products, and Other Supplies and Services Off-Station,” July 19, 1994,
    provides guidance regarding purchases of non-Air Force aviation fuel. The
    Instruction was issued prior to the use of the AIR Card and provides instructions
    on how the aircrew should handle receipts and resource personnel certifications of
    any vendor invoices. The Instruction requires that aircrews return any
    procurement or purchase documents and invoices to the home station once they
    have returned from the mission. When aircrews are away from the home location,
    the aircraft commander must report by message or phone non-Air Force refueling
    data to the applicable home station within 4 calendar days of the month following
    the purchase. The Instruction also states that if the resource personnel cannot find
    a base-level record to validate a non-Air Force refueling, they should contact the
    major command for assistance in ensuring the purchases were for valid purposes.

    Data Quality Contract Requirement. The AIR Card contract requires that
    AVCARD provide detailed transaction data that ensures timely and accurate
    billing to the appropriate payment office. The contract also requires that
    AVCARD maintain a quality assurance program that ensures that the information
    provided for reports in accordance with the contract is complete, accurate, and
    timely.


Matching AIR Card Receipts With Payments
    The DoD Components did not have an adequate process in place that would
    match AIR Card receipts for fuel and ground services to monthly bills, preclude
    duplicate payments, and recoup fuel and ground service taxes from which DoD
    was exempt. For FY 2001, we selectively reviewed the controls over the
    processing of 24,959 purchases, valued at $37.3 million. Controls were not
    adequate over the following aspects of the program:

           •   the Services certified and paid 69 percent of fuel and ground service
               transactions reviewed without examining supporting documentation
               that verified AIR Card charges;

           •   some transactions to FBOs were paid more than once; and

           •   the Services did not always file for reimbursement for various Federal,
               State, and local taxes paid for fuel and ground services.

    Certifying and Paying AIR Card Transactions. The Services certified and
    paid fuel and ground service transactions without reviewing supporting
    documentation that verified AIR Card charges. According to OMB


                                         6
Circular A-123 and the GAO Policy and Procedures Manual, Government
agencies are required to establish controls that provide disbursing officers with
reasonable assurance that vouchers are accurate prior to payment. DoD
Regulation 7000.14-R and Service guidance state that prior to making payments,
organizations are required to match vendor invoices with receipt data.

        AIR Card Billing and Disbursing Process. The process for billing and
disbursing differs among the Services and between contract fuel purchases and
the non-contract fuel and ground service purchases. After fueling or receiving
ground services, aircrews certify by signing the appropriate sales receipt provided
by the FBO including the type of product, quality of the service, and quantity of
fuel purchased. The FBO and the aircrew retain copies of each sales receipt. The
FBO uses one of two processing systems to submit an invoice to AVCARD for
payment. For manual invoice processing, the vendor mails or transmits a
facsimile of the invoice and sales receipt to AVCARD. For electronic invoice
processing, the FBO electronically transmits for processing invoice and receipt
data to AVCARD.

        AVCARD forwards contract fuel billing information to DESC, which then
electronically transfers the billing data to DFAS Columbus. DFAS Columbus
pays the FBOs on behalf of DESC. DESC obtains reimbursement from each
Service through interfund billings2 that are processed through DFAS Columbus.
AVCARD pays all of the non-into-plane FBOs for non-contract fuel and ground
services. AVCARD then issues monthly billing statements to each of the units
for payment. See Appendixes B, C, and D for detailed sample results.

        Contract Fuel Transactions. The Services did not reconcile contract
fuel charges using receipt data to verify that quantities of fuel purchased from the
FBOs, and paid by DFAS, matched quantities of fuel received. Aircrews did not
always collect and turn in AIR Card fuel receipts, and certifying officials3 did not
use receipts to reconcile the AIR Card charges. That situation existed because the
Services had not implemented consistent receipt data collection procedures that
would effectively fulfill interfund billing reconciliation responsibilities. We
visited 17 sites and reviewed 18,865 charges to the AIR Card for contract fuel.
Table 1 shows the number of transactions not reconciled at the sites visited. See
Appendix E for detailed sample results.




2
The billing office will credit the appropriation or fund of the selling Component that owns the
materiel or finances the accessorial charges and charge the appropriations or funds of the
purchasing Component.
3
Certifying officials were part of the comptroller division at some sites visited and part of the
supply division at other sites visited.



                                             7
                            Table 1. Contract Fuel Transactions

                           Total Transactions               Transactions Not Reconciled
        Service             Value         Receipts          Value      Receipts   Percent*

 Army                    $ 4,094,263         7,720       $ 4,094,263     7,720     100
 Navy                      4,678,086         6,598           512,488       536      11
 Air Force               13,027,227          1,708         8,287,837     1,297      64
 Marine Corps              4,000,369         2,839         3,792,116     2,612      95

     Total              $25,799,945        18,865       $16,686,704     12,165      65
 *
     Judgment sample percentage does not generalize to universe.


                Army. We visited 5 Army sites—Fort Campbell, Kentucky; Fort
Hood, Texas; Fort Stewart, Georgia; Hunter Army Airfield, Georgia; and
Savannah Airfield, Georgia—and reviewed 7,720 AIR Card transactions for
contract fuel, valued at $4.1 million. Certifying officials at those sites approved,
without reconciling receipt data to DFAS interfund reports, 100 percent of those
transactions. Overall, the Army aircrews turned in most fuel receipts at mission
debriefs. In some cases, however, the receipts were taken to the logistics office
and filed. In other cases, the receipts were taken to the comptroller’s office and
filed. Certifying officials did not receive DFAS interfund reports and were
unaware that the reports existed. The certifying officials were also unaware of the
requirement to use receipts and did not have a system in place to perform the
reconciliation.

                Navy. We visited 4 Navy sites—Navy Flight Demonstration
Squadron, Florida; North Island Naval Air Station, California; Oceana Naval Air
Station, Virginia; and Training Wing Six, Florida—and reviewed 6,598 AIR Card
transactions for contract fuel valued at $4.7 million. At the 4 Navy sites visited,
certifying officials approved, without reconciling receipt data to DFAS interfund
reports, $512,488 or about 11 percent of the transactions. Of the units reviewed,
only three Navy units were doing an adequate job of matching receipts to monthly
bills. The Navy Flight Demonstration Squadron and the Training Wing Six at
Pensacola Naval Air Station as well as VF-101 at Oceana Naval Air Station had a
system in place to validate AIR Card charges (for contract fuel, non-contract fuel,
and ground services) and followed an adequate validation process. At those three
Navy sites, procedures to collect and file receipts and to create obligations for
each purchase were in place. Certifying officials received DFAS interfund
reports and compared the itemized expenditures to the value of the obligations
established from the receipts on file. If the interfund information contained
expenditures for which certifying officials did not have an obligation, either the
aircrew was contacted and instructed to find the receipt or the FBO was contacted
and asked to provide to certifying officials a facsimile copy of the original receipt.


                                             8
If the aircrew or the FBO could not find the receipt, the transaction was
challenged for proper credit. At North Island Naval Air Station, however, some
of the aircrew did not turn in all receipts, and certifying officials approved 45
percent of the transactions without reconciling receipt data to DFAS interfund
reports.

                 Air Force. We visited 5 Air Force sites—Andrews Air Force
Base (AFB), Maryland; Dyess AFB, Texas; Eglin AFB, Florida; March Air
Reserve Base, California; and McChord AFB, Washington—and reviewed
1,708 AIR Card transactions for contract fuel valued at $13 million. Certifying
officials at those sites approved, without reconciling receipt data to DFAS
interfund reports, $8.3 million or about 64 percent of the transactions. At three of
the sites visited, aircrews turned in receipts at mission debrief. The receipts were
filed by date in the resource manager’s office. However, certifying officials did
not use receipts to reconcile the transactions to DFAS interfund reports. At one
site visited, a reconciliation process was in effect at the beginning of FY 2001, but
the process stopped after 5 months when a position change took place. At another
site visited, about 48 percent of the total amount DFAS interfunded had not been
reconciled using receipt data. Air Force certifying officials primarily cited lack of
manpower resources as the reason for the lack of reconciliation.

                Marine Corps. We visited 3 Marine Corps sites—Marine Corps
Air Station Miramar, California; Marine Corps Base Camp Pendleton, California;
and Marine Corps Base Quantico, Virginia—and reviewed 2,839 AIR Card
transactions for contract fuel valued at $4 million. Certifying officials at those
sites approved, without reconciling receipt data to DFAS interfund reports,
$3.8 million or about 95 percent of the transactions. Aircrews were generally not
turning in receipts after returning from missions. When receipts were turned in,
certifying officials created obligations for the fuel and filed the receipts.
However, receipts were not matched with the DFAS interfund reports. Certifying
officials did not compare the itemized expenditures to the value of the obligations
established from the receipts on file, or question or challenge interfund
transactions. Marine Corps certifying officials stated that they were unaware that
a process to reconcile contract fuel purchases to DFAS interfund reports existed.
        Non-Contract Fuel and Ground Service Transactions. The Services
paid AVCARD invoices, through DFAS, for non-contract fuel and ground
services without using receipt data to verify that quantities billed by AVCARD
matched quantities received prior to certifying the invoices for payment by
DFAS. Aircrews did not always collect and turn in AIR Card fuel and ground
service receipts or certifying officials did not use receipts to validate the
AIR Card charges. The Services did not implement consistent receipt data
collection procedures required to effectively fulfill their AVCARD billing
verification responsibilities. We visited 17 sites and reviewed 6,094 charges to
the AIR Card for non-contract fuel and ground services. Table 2 shows the
number of transactions not validated at the sites visited. See Appendix E for
detailed sample results.




                                      9
             Table 2. Non-Contract Fuel and Ground Service Transactions

                           Total Transactions                Transactions Not Validated
        Service             Value         Receipts          Value       Receipts   Percent*

 Army                   $02,039,987         2,400       $2,039,987        2,400     100
 Navy                       750,877           406           70,292           77       9
 Air Force                7,632,056         2,249        6,313,714        1,941      83
 Marine Corps             1,088,241         1,039          777,017          769      71

     Total              $11,511,161         6,094       $9,201,010        5,187      80
 *
     Judgment sample percentage does not generalize to universe.


                Army. At the 5 Army sites visited, we reviewed
2,400 transactions for non-contract fuel and ground services valued at $2 million.
Certifying officials at those sites approved, without validating receipt data to the
AVCARD billing statements, 100 percent of those transactions. Overall, the
Army aircrews turned in most fuel receipts at mission debrief. In some cases,
however, the receipts were taken to the logistics office and filed. In other cases,
receipts were taken to the comptroller’s office and filed. Certifying officials did
not use the original receipts to validate AVCARD billing statements. The
certifying officials were unaware that a requirement to use receipts existed and
did not have a system in place to perform the validation.

                 Navy. At the 4 Navy sites visited, we reviewed 406 transactions
for non-contract fuel and ground services valued at $750,877. Certifying officials
at those sites approved $70,292 or about 9 percent of the transactions without
validating receipt data to AVCARD billing statements. At three of the Navy sites
visited, procedures to collect and file receipts and to create obligations for each
purchase were in place. When certifying officials received AVCARD statements,
receipts were pulled from the file and matched to the transactions on the
statements. If AVCARD statements contained a charge for which certifying
officials did not have a receipt, either the aircrew was contacted and instructed to
find the receipt or the FBO was contacted and asked to provide to certifying
officials a facsimile copy of the original receipt. If the aircrew or the FBO could
not find a receipt, the AVCARD transaction was challenged and not paid. At
North Island Naval Air Station, however, some of the aircrew did not turn in all
receipts and certifying officials approved 19 percent of those transactions without
validating receipt data to AVCARD billing statements.

               Air Force. At the 5 Air Force sites visited, we reviewed
2,249 transactions for non-contract fuel and ground services valued at
$7.6 million. Certifying officials at those sites approved $6.3 million or about
83 percent of the transactions without validating receipt data to AVCARD billing


                                            10
statements. At three of the sites visited, aircrews turned in receipts at mission
debrief. The receipts were filed by date in the resource manager’s office.
However, receipts were not used to validate AVCARD billing statements. At one
site visited, a validation process was in effect at the beginning of FY 2001, but the
process stopped after 5 months. At another site visited, about 55 percent of the
total AVCARD transactions billed had not been validated using receipt data. Air
Force certifying officials primarily cited lack of manpower resources as the
reason for lack of validation.

                Marine Corps. At the 3 Marine Corps sites visited, we reviewed
1,039 transactions for non-contract fuel and ground services valued at
$1.1 million. Certifying officials at those sites approved $777,017 or about
71 percent of the transactions without validating receipt data to AVCARD billing
statements. Aircrews were generally not turning in receipts after returning from
missions. When receipts were turned in, certifying officials created obligations
for the fuel and filed the receipts. When the AVCARD billing statements arrived,
the officials matched receipts to the statements. If the AVCARD billing
statements had transactions for which original receipts were not available,
certifying officials created a receipt-like document from the AVCARD billing
statement. The certifying officials then used the receipt-like document to create
the obligation and filed the receipt-like document in place of the actual receipt.
Marine Corps certifying officials stated that aircrews not turning in receipts
caused the lack of validation of the AVCARD billing statement.

Overall Reconciliation and Validation. At the 17 sites visited, the Services
approved $16.7 million or about 65 percent of the contract fuel transactions
without reconciling receipt data to DFAS interfund reports. In addition, the
Services approved $9.2 million or about 80 percent of the non-contract fuel and
ground service transactions without validating receipt data to AVCARD billing
statements. As a result of the Services’ lack of reconciliation and validation,
increased risk existed that the majority of AIR Card fuel and ground service
charges, valued at $222.4 million, were paid in FY 2001 without assurance that
the charges were legitimate.
Duplicate Payments. Transactions to FBOs were paid more than once. Analysis
of the AVCARD database identified transactions valued at $2.9 million in
potential duplicate payments, which would have resulted in $1.4 million in
overpayments. Whenever available, we reviewed copies of receipts obtained
from DFAS Columbus or original documents obtained at the sites visited. We
verified that $62,025 of the transactions were not overpayments. Because of the
limited number of sites visited and because of the lack of documentation at the
sites, we were unable to verify whether $1 million of the transactions were
overpayments. We were, however, able to confirm that management controls that
would have identified $358,676 of overpayments were not in place.

Specifically, lack of management controls at DESC and DFAS Columbus resulted
in the processing and payment of duplicate transactions. AVCARD processed
and transmitted inaccurate billing data to the Automated Voucher Examining and
Disbursing System (AVEDS). DESC was responsible for administering AVEDS
as well as monitoring the transmission of data and was unable to detect the
duplicate transactions. DFAS Columbus used AVEDS to generate payment


                                     11
vouchers and was also unable to identify the duplicate transactions before they
were paid. In one instance, the FBO submitted a transaction twice, AVEDS
system edit checks failed to identify the transaction as a duplicate, and $3,552
was paid twice. In another instance, AVEDS system edit checks identified the
transaction as a duplicate and rejected it. However, DFAS Columbus personnel
re-entered the transaction, forcing it through the system by modifying the
document control number; and $4,491 was paid twice. In addition, other sets of
transactions were submitted twice but using different document control numbers.
Those transactions were submitted both by mail and through electronic transfer,
and $109,949 was paid twice.

The Services could not identify duplicate transactions because management
controls did not ensure that transactions billed were validated with the receipts.
Generally, the Services did not have in place effective processes that could
validate the fuel and ground service transactions; therefore, they were unable to
challenge the charges when they came through their accounts twice.

In response to our inquiries, DFAS Columbus identified $137,306 of
overpayments in addition to the $358,676 that we had already identified. As a
result, during FY 2001 the Services overpaid at least $495,982 of operations and
maintenance funding for fuel and ground service transactions.

Reimbursement of Taxes. The DLA did not issue guidance to the Services on
how to file for reimbursement of taxes paid. Therefore, the Services did not file
for reimbursement for various Federal, State, and local taxes paid on fuel and
ground services for FY 1999, FY 2000, and FY 2001. Federal, State, local, and
other miscellaneous taxes were included in the prices for aviation fuel and ground
services purchased by the Services. In most cases, however, DoD is exempt from
paying the taxes and could recoup the tax dollars.

DESC assumed responsibility for filing for Federal excise tax reimbursement
claims on contract fuel for the Services. The filing responsibilities for tax
reimbursement claims on non-contract fuel and ground services differ among the
Army, Navy and Air Force.
For non-contract fuel and ground service taxes, the Army was responsible for
filing the appropriate reimbursement claims. DESC had an agreement with the
Navy to file reimbursement claims for Federal excise taxes for the Navy and the
Marine Corps. However, as of April 23, 2002, DESC had not filed for those
reimbursement claims. DESC San Antonio4 (Texas) was responsible for filing
the appropriate reimbursement claims for fuel for the Air Force. The Air Force
was responsible for filing tax reimbursement claims on ground services.

        FY 2001 Taxes Paid. We analyzed the AVCARD database to determine
the total in all categories of taxes each Service paid for contract fuel, non-contract
fuel, and ground services. See Appendix F for details on taxes paid in FY 2001.


4
    During FY 2001, DESC San Antonio was the centralized location for aviation fuel payments for
    the Air Force.



                                            12
             During FY 2001, the Services paid $14.1 million in taxes for contract fuel
     purchased with the AIR Card. Nearly 100 percent of that amount was Federal
     excise tax. Of the $14.1 million, the Army paid $3.1 million (22 percent), the
     Navy paid $4.7 million (33 percent), and the Air Force paid $6.3 million
     (45 percent). Through DFAS Columbus, DESC filed for tax reimbursement
     claims totaling $14 million. Neither DESC nor the Services filed claims for the
     remaining $87,015.

            During FY 2001, the Services paid a total of $3.7 million in taxes for
     non-contract fuel and ground services purchased with the AIR Card. Of that
     amount, the Army paid $700,089 (19 percent), the Navy paid $547,953 million
     (15 percent), and the Air Force paid $2.4 million (66 percent). Of the
     $3.7 million paid, $1.3 million was Federal excise tax that the Air Force paid.
     DESC San Antonio filed tax reimbursement claims for the Air Force for
     $708,699. In addition, the Air Force paid $395,023 for Canadian Goods and
     Services Tax for which DESC San Antonio filed reimbursement claims for
     $116,771. Neither DESC nor the Services filed claims for the remaining
     $2.9 million, which included 18 different types of taxes.

             FY 1999 and FY 2000 Taxes Paid. The statute of limitations for filing
     Federal reimbursement claims is 3 years after the close of the fiscal year;
     therefore, we requested tax information from AVCARD for FY 1999 and
     FY 2000. AVCARD provided us with data that supported $24 million in taxes
     paid. DESC and the Services filed for reimbursement for FY 1999 through
     FY 2000 taxes, resulting in $19.1 million in reimbursements. However, neither
     DESC nor the Services filed claims for the remaining $4.9 million, which
     included 18 different type of taxes.

     We were unable to determine the exact dollar amount of the taxes the Services
     could recoup. While the Federal Government is generally exempt from State and
     local taxation, considerable litigation and interpretation exists. Government
     counsel must review each statute that imposes a tax or levy and determine
     whether the Federal Government is in fact exempt.
     Management controls were not in place to ensure the Services had guidance on
     how to file for reimbursement of taxes; however, at most of the sites visited,
     officials were not aware that DoD was exempt from many of the taxes and had
     not seen any guidance or policy on how they could individually file for the
     reimbursement of those resources. The Services may have paid $7.8 million
     during FY 1999 through FY 2001 for taxes for which they may have been exempt
     and able to recoup. As much as $7.8 million in operations and maintenance
     funding could be recouped.


Policies, Procedures, and Responsibilities
     Controls over matching receipts to monthly bills and recoupment of taxes
     pertained to guidance that was incomplete, outdated, or not followed. In addition,
     program management and oversight of AIR Card validation was not adequate.



                                         13
Further, DESC or the units did not provide standard training for the AIR Card
program. DFAS lacked adequate edits and controls to preclude paying twice for
the same transactions.

Development and Use of Policies and Procedures. OMB Circular A-123 states
that controls such as policies and procedures help managers achieve results and
safeguard the integrity of programs. However, DLA did not develop and provide
policies and procedures for using the AIR Card to the Services. In addition,
existing DLA and Service instructions and regulations were not followed or
outdated. Further, the management and oversight of the AIR Card program was
inadequate.

         DLA Manual. The DLA-prepared DoD Manual 4140.25-M was outdated
because it was issued prior to the use of the AIR Card. The Manual provides
basic guidance on into-plane issues and requires verification of the purchase with
the receipts. However, the Manual does not provide specific procedures for
matching receipts to invoices. In addition, DLA did not provide guidance on how
to file for reimbursement of the taxes paid, and to which accounts the
reimbursements could be applied.

        Service Instructions and Regulations. Army Regulation 710.2 was
outdated because it was issued prior to the use of the AIR Card. However, the
Regulation does provide basic guidance on the use of Government credit cards for
aviation fuel purchases and requires retention of credit card receipts and
validation of transactions. Army sites visited did not follow the Army regulation
because the units were unaware that guidance existed.

        Commander, Naval Air Atlantic Instruction 7310.1W, was issued after the
introduction of the AIR Card and provides specific guidance on procurement of
fuel and ground services using the AIR Card. The Instruction requires retention
of receipts and provides instructions for payments and certifications. The Naval
Air Atlantic sites visited were in compliance with the regulation. However, the
Naval Air Pacific site visited was not aware of the procedures required for
payments and certifications of AIR Card purchases.
        The Navy and Marine Corps AIR Card Desk Guide provides standard
procedures for using the AIR Card. The guide requires that an aircrew’s copy of
a receipt is used to establish the obligation and certify the invoice for payment.
The Navy Flight Demonstration Squadron, the Training Wing Six, and the
Oceana Naval Air Station followed the guidance. However, the North Island
Naval Air Station or the Marine Corps sites visited did not follow the guidance.

        Air Force Instruction 23-202, which provides guidance on purchases of
non-Air Force aviation fuel, was also issued prior to the AIR Card program. The
Instruction provides guidance on aircrew handling of receipts and resource
personnel certification of invoices. The Air Force Instruction was not followed at
the Air Force sites visited.

Program Management and Oversight. The AIR Card program’s management
and oversight was not adequate because DESC and the Service Petroleum Offices
did not develop specific procedures for improving oversight and management


                                    14
controls over the AIR Card program. In addition, the Army and the Air Force did
not issue guidance that establishes unit-level oversight and management controls
over the AIR Card program. The Navy, however, incorporated the AIR Card into
Navy Supply Instruction 5450.29H, “Mission, Functions and Tasks of Naval
Petroleum Office (NAVPETOFF),” September 10, 1998. Procedures should
include annual program oversight reviews that both require adequate training and
AVCARD compliance with contract requirements.

        DESC. DESC performed annual Management Control Review
Assessments on the adequacy of controls over the AIR Card purchases. The
assessments for FY 1999 through FY 2001 state that the greatest risk associated
with the AIR Card is improper card use, which obligates the Government for
unauthorized, unacceptable, or improper expenditures. The FY 2001 assessment
also states that the risk is considered minimal because of the nature of the
purchases and the scrutiny of the purchases by the certifying officials who
certified invoices. However, the DESC risk assessment was based on the
assumption that the Services were scrutinizing the charges. The results of our
review showed that, in most cases, the Services did not validate the charges.

        Service Petroleum Offices. The Service Petroleum Offices did not
perform annual oversight reviews. In addition, units did not conduct internal
reviews of the AIR Card program. Even though the petroleum offices are the
points of contact for DESC for the AIR Card contract, DESC did not issue any
standard operating procedures that would establish a role for the petroleum
offices within the program to include oversight responsibility. In addition, the
Army and the Air Force did not assign their petroleum offices oversight
responsibility. Army Petroleum Center officials cited DoD Manual 4140.25-M as
a basis for any policy and procedure for managing aviation fuels and the
AIR Card. However, the Manual was issued before the AIR Card program and
does not address the roles and responsibilities for the Army Petroleum Center
regarding the program. The Air Force Petroleum Office officials cited Air Force
Instruction 23-201 as the source of the Air Force Petroleum Office’s roles and
responsibilities. Air Force Instruction 23-201 does not, however, define any role
and function that relates to the AIR Card. Navy Supply Instruction 5450.29H
requires that the Naval Petroleum Office issue policy and procedures for the
AIR Card program within the Navy, but does not require annual oversight
reviews.

Standardized Training. DESC and the Service Petroleum Offices need to
ensure that program participants understand the roles and responsibilities for
using AIR Cards. However, no DoD guidance defines the specific training
aircrews should receive before using the AIR Card or the training individuals who
certify AVCARD bills for payment should receive. The Charge Card Task Force
the Under Secretary of Defense (Comptroller)/Chief Financial Officer established
is developing a training program for the DoD charge card users. DESC and the
Service Petroleum Offices should join with the Charge Card Task Force to
develop a separate AIR Card training program for aircrews and approving
officials. The program should include initial training for new users and periodic
refresher training.




                                   15
    As an example of specific training needs, the Army and the Marine Corps sites
    visited did not have the necessary training to access DFAS interfund reports.
    Without the reports, certifying officials could not reconcile contract fuel receipts
    to amounts paid. In addition, certifying officials at Air Force sites visited were
    not trained in collecting and retaining receipts, and certifying bills for payment.
    Also, certifying officials were not trained on the procedures for reconciling
    monthly interfund reports for fuels paid.

    System Edit Checks. DESC and DFAS lacked adequate edits and controls to
    preclude paying twice for the same transactions. FBOs submitted some
    transactions more than once for payment to AVCARD. Although the AVCARD
    contract requires AVCARD to maintain a quality assurance program, AVCARD
    processed the duplicate transactions and electronically transmitted the
    transactions to AVEDS. DESC administered AVEDS and monitored the
    transmission of data. DFAS accessed AVEDS and printed reports for review.
    DFAS Columbus personnel reviewed the reports, corrected any identified errors,
    and forwarded the reports to an entitlement specialist. DFAS entitlement
    specialists reviewed the transactions listed in the reports, made sure any identified
    errors were corrected, and then certified the reports. DFAS Columbus generated
    payment to vendors using AVEDS and during the process, DFAS Columbus did
    not identify duplicate transactions. DESC should expand the edit checks in
    AVEDS to detect any duplicate transactions AVCARD processed. DFAS should
    implement controls to prevent personnel from forcing payment of duplicate
    transactions.


The Purple Hub
    On October 1, 2001, DESC capitalized the transfer of bulk fuel management from
    the Military Departments to DESC. Beginning in FY 2002, DESC became
    responsible for paying for all DoD AIR Card fuel charges, seeking repayment
    from the Services through the interfund billing process, and filing for
    reimbursement of any Federal excise tax. DESC is responsible for developing
    and implementing the Fuels Automated System Enterprise Server, commonly
    referred to as the Purple Hub. The Purple Hub is a Web-based environment that
    collects, routes, and reports transactions among bases, contractors, DESC, and
    DFAS. The Services no longer generate the obligations for fuel purchased.
    Obligations are automatically generated each night in the Services’ general
    accounting financial systems as soon as the transaction enters the Purple Hub.

    Filing of Tax Reimbursement Claims. Beginning October 1, 2001, DESC pays
    the fuel provider and directly bills the Services through DFAS Columbus. DFAS
    Columbus, being the centralized location of all of DoD aviation fuel payments,
    also assumed the responsibility of filing Federal Excise reimbursement claims on
    behalf of DESC. Filing of reimbursement claims for taxes paid on ground
    services remains a responsibility of the Services.




                                         16
    Validation of Fuel Transactions. Using the Purple Hub could further
    complicate issues that relate to the validation process as well as increase the need
    for stronger and additional controls. Certifying officials have less visibility over
    each individual transaction because the Purple Hub does not require action from
    the certifying officials to generate obligations and issue payments. The Purple
    Hub processes all transactions electronically and pays all transactions
    automatically unless certifying officials challenge a transaction.

    Each certifying official can review transactions generated in the Purple Hub and
    choose to reject or dispute individual transactions. The process for challenging
    transactions includes the following:

           •   advise DESC of the challenge;

           •   allow DESC 5 working days to research the challenge;

           •   depending on the outcome, DESC might reinstate the transaction;

           •   if the disagreement continues, certifying officials might challenge the
               transaction again;

           •   if challenges are not resolved by the end of the month, the transactions
               will be automatically paid; and

           •   further challenges would be accomplished in person, no longer
               through the system.

    Once the transactions enter the Purple Hub, certifying officials have 17 days to
    review the transactions online. If not validated or challenged within 17 days, the
    transaction will be paid in error and duplicate payments will continue to go
    unchallenged. As of June 13, 2002, no requirement existed for certifying officials
    to validate transactions. Because the Purple Hub generates obligations
    automatically and pays transactions automatically, stronger controls ensure that
    all Service users validate each individual transaction using receipt data.
    Although paid by DESC, non-contract fuel had not been incorporated into the
    Purple Hub. The objective of DESC is to process non-contract fuel through the
    Purple Hub in the same manner as contract fuel. Once integrated, however,
    processing non-contract fuel may present the same problems as contract fuel.

    Purple Hub Training. Certifying officials can access and validate the electronic
    transactions using the Web-based system. Certifying officials will, therefore,
    require training specific to the Purple Hub.


Conclusion
    Oversight and management controls over the AIR Card program were not
    adequate. While DESC performed risk assessments, those assessments are based
    on the assumption that the Services validated charges. However, the results of


                                         17
    our review showed that, in most cases, the Services did not validate the charges.
    The lack of controls allowed the Services to certify and pay for
    217,485 transactions for fuel and ground services without reviewing supporting
    documentation. Furthermore, DESC and the Service Petroleum Office guidance
    did not ensure that units consistently collected and retained receipts to support
    effective reconciliation. Management controls were not in place to prevent
    payment of duplicate transactions and to ensure the Services had guidance on how
    to file for reimbursement of various taxes. As a result, AIR Card charges of
    approximately $222.4 million were paid during FY 2001, without any assurance
    that the charges were legitimate. In addition, DoD overpaid FBOs at least
    $495,982 in duplicate transactions during FY 2001. Also, the Services paid more
    than $7.8 million during FY 1999 through FY 2001 for taxes from which DoD
    may have been exempt. Recommendations, if implemented, could result in
    potential monetary benefits of at least $8.3 million for the recovery of duplicate
    transaction and tax overpayments.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Logistics Agency establish
    written guidance that:

           a. Clearly defines the Services’ responsibilities for using the Aviation
    Into-Plane Reimbursement Card, collecting and turning in receipts,
    retaining and filing receipts, and processing Aviation Into-Plane
    Reimbursement Card invoices.

          b. Requires the Services to validate interfund AVCARD charges for
    contract fuel and non-contract fuel using receipt data.

           c. Requires the Services to validate, prior to payment, ground service
    transactions that AVCARD bills to the unit using receipt data.

             d. Provides information on the taxes from which DoD is exempt, how
    to file for a reimbursement of the taxes paid, and to which accounts the
    reimbursements can be applied.

    DLA Comments. DLA, Director, Logistics Operations concurred with the intent
    of Recommendation 1.a. The Director described several sources of guidance on
    fuel procurement and stated that DoD 4140.25 and business rules have been
    added to the DESC website. The Director further stated that the procedures were
    generic and should be supplemented by the Services. The Director nonconcurred
    with Recommendations 1.b. and 1.c., stating that the guidance already exists in
    DoD 4000.25-7-M and DoD 7000.14R, chapter 6. The Director further stated that
    no specific additional instruction was warranted. The Director concurred with
    Recommendation 1.d. and stated that DESC has developed a compilation of fuel




                                        18
taxes and posted the compilation on the DESC Web site. The information is
updated regularly and provides information on tax rates, tax exemption status, and
how to file for refunds.

Audit Response. DLA comments on Recommendations 1.a., 1.b., and 1.c. are
not responsive. We disagree with the Director that adequate and specific
guidance already exists and that no specific additional instruction is warranted.
While we agree that general guidance exists, the guidance is outdated and
inadequate. The discussion section of the report provides documentation that the
existing guidance does not ensure that units consistently validate the AVCARD
bills and interfund charges for payment. Guidance that defines responsibilities
and the detailed processes for collecting and turning in receipts, validating
interfund charges, and ground service transactions is still needed. The Army
Deputy Chief of Staff for Logistics, Director for Sustainment, the Deputy
Assistant Secretary of the Navy Planning, Programming, and Resources, and the
Air Force Assistant Deputy Chief of Staff, Installations and Logistics have
generally concurred with the finding and recommendations and have indicated
that they will implement the new DESC guidance and update the Service
directives when that guidance is received. We ask that DLA review the Service
responses provided to the report and reconsider its position on Recommendations
1.a., 1.b., and 1.c. in response to the final report. DLA comments on
Recommendation 1.d. are responsive.

2. We recommend that the Director, Defense Energy Support Center review
the Aviation Into-Plane Reimbursement Card contractor’s performance
(AVCARD) to determine if the contractor complies with the quality
assurance requirements of the contract and take remedial action where
needed.

DLA Comments. DLA, Director, Logistics Operations partially concurred with
Recommendation 2. The Director stated that a review of the contract has shown
that the contractor is in compliance with the quality assurance clause of the
contract. The Director stated that DESC will implement an annual site visit to the
contractor facility to monitor performance. DESC will conclude the site visit
with a report documenting findings, discussions, and recommendations.

Audit Response. Although DLA partially concurred with Recommendation 2.,
DLA comments are responsive.

3. We recommend that the Director, Defense Energy Support Center in
conjunction with the Service Petroleum Offices:

       a. Establish interim procedures until final guidance is published that
corrects deficiencies outlined in Recommendation 1.

       b. Establish policies and procedures that require Service Aviation
Into-Plane Reimbursement Card officials to submit reports on the results of
oversight reviews and provide guidance that will effect corrective actions as
needed.




                                    19
        c. Coordinate with the DoD Charge Card Task Force to establish a
standard training for Service Aviation Into-Plane Reimbursement Card user
organizations on the use of the Aviation Into-Plane Reimbursement Card,
collection of receipts, processing of ground service payments to AVCARD,
and validation of fuel purchased through DESC.

DLA Comments. DLA, Director, Logistics Operations partially concurred with
Recommendation 3.a. The Director stated that DESC could publish only
overarching guidelines and will use the DLA One Book as a single source of
answers for concerns raised. The Director nonconcurred with
Recommendation 3.b., stating that the Contracting Officer Representative for
each Service has oversight of the contract and the responsibility to report any
problems with the contractor. The Director stated that to date, no outstanding
discrepancies with the AVCARD contractor were noted. The Director concurred
with Recommendation 3.c., however, and stated that the operations and missions
of the Services limit total standardized AIR Card training. The Director indicated
that DESC already provides standardized information through DoD 4140.25, the
DESC Web site, Business Rules, and other printed material provided at
conferences and AIR Card briefings. The Director further stated that DESC was
unaware of any established DoD Charge Card Task Force and would welcome the
opportunity to discuss program enhancement or process improvements. The
Director would also encourage the Office of the Secretary of Defense to direct
DFAS to streamline and restructure a single payment office for each branch of
Service or the use of one standardized accounting and payment practice.

Audit Response. DLA comments on Recommendations 3.a., 3.b., and 3.c. are
not responsive. We agree that processes must continually be reviewed to ensure
that proper applications are utilized. DESC, however, still needs to establish
interim procedures until final guidance is published in accordance with
Recommendation 1. Interim guidance needed should define responsibilities and
the detailed processes for collecting and turning in receipts, validating interfund
charges and ground service transactions. In addition, DESC also needs to
establish policies and procedures that require Service AIR Card officials to
submit reports of each organization’s oversight reviews and provide the guidance
to the Services to take corrective actions. Regarding Recommendation 3.c., the
Deputy Secretary of Defense Memorandum, “Department of Defense Charge
Card Programs,” June 21, 2002, directed that management at all levels ensure
necessary oversight of Government charge cards and education that will eliminate
fraud, misuse, and abuse of those cards. On March 19, 2002, the Under Secretary
of Defense (Comptroller) directed the establishment of an internal Task Force to
examine the Department’s management of charge card programs. That particular
direction arose because of increased concern that insufficient management
oversight was allowing Government charge cards to be misused. The Under
Secretary directed DoD Components to provide a report on actions taken to
resolve cases of charge card misuse, abuse, and delinquencies and preclude the
problems in the future. The Under Secretary also directed that the Task Force
examine charge card operations, identify major deficiencies in the program, and
develop recommendations for modifying management of those programs. The
Task Force is working on development of a training program for purchase card




                                    20
users. We ask that DLA review the Service responses provided to the report and
reconsider its position on Recommendations 3.a., 3.b., and 3.c. in response to the
final report.

Army Comments. The Office of the Army Deputy Chief of Staff for Logistics,
Director for Sustainment concurred with the recommendation and stated that the
Army Petroleum Center is issuing interim guidance to participating units.

Navy Comments. The Deputy Assistant Secretary of the Navy Planning,
Programming, and Resources, concurred with Recommendations 3.a., 3.b.,
and 3.c. and further recommended that the Navy and Marine Corps AIR Card
Desk Guide be used as a template for other Services in meeting the
recommendation.

Air Force Comments. The Assistant Deputy Chief of Staff, Installations and
Logistics concurred with the intent of the recommendation and stated that the Air
Force will publish interim operating procedures within 30 days of the receipt of
DLA interim guidance and will implement final guidance published by DLA.
The Assistant Deputy estimated completion date is February 7, 2003.

4. We recommend that the Director, Defense Energy Support Center in
conjunction with the Director, Defense Finance and Accounting Service:

       a. Review and expand, as necessary, the edit check process in the
Automated Voucher Examination Disbursing System so that charges that are
input more than once are not accepted for payment by the system.

      b. Review AVCARD transactions for, at a minimum, FY 2000
through FY 2002 to identify duplicate transactions and initiate action to
recover any overpayments.

DLA Comments. The DLA, Director, Logistics Operations concurred with the
recommendation and stated that AVEDS already incorporates a number of edits
designed to preclude duplicate payments and inaccurate information. The
Director stated that the effectiveness of those edits is demonstrated by the amount
of duplicate payments the report identifies, which represents less than one-half of
1 percent of the entire program. The Director indicated that DESC had altered the
manner in which duplicates for contract purchases were identified systematically,
which will correct the deficiency. The Director agreed to take action that will
recover any payments if irregularities surface during the process.

Audit Response. DLA comments on Recommendations 4.a. and 4.b. are not
responsive. The Director concurred with the recommendations but did not
identify the steps that will either expand the edit check process or recover the
overpayments. The DFAS, Columbus Center concurred with the recommendation
and agreed to work with DESC to expand the edit check process. We request that
DLA review the comments DFAS provided and reconsider its position on
Recommendation 4.a. in response to the final report.




                                    21
DFAS, Columbus Center Comments. The Deputy Director, Commercial Pay
Services concurred with Recommendations 4.a. and 4.b. The Deputy Director
stated that systemic controls are necessary in AVEDS to ensure duplicate
transactions related to AVCARD purchases are only entered and paid once. The
Deputy Director further stated that the Commercial Pay Business Line will
coordinate with DESC relative to expanding the edit check process in AVEDS.
In addition, the Commercial Pay Business Line will develop specific criteria to
identify duplicate transactions in conjunction with DESC.

5. We recommend that the Army Deputy Chief of Staff, Logistics update
Army Regulation 710.2, “Inventory Management Supply Policy Below the
Wholesale Level,” October 31, 1997, and require compliance with the policies
and procedures that the Defense Energy Support Center and the Services’
Petroleum Offices developed based on Recommendations 1.a., 1.b., 1.c., 1.d.,
3.a., and 3.b.

Army Comments. The Office of the Army Deputy Chief of Staff for Logistics,
Director for Sustainment concurred with the recommendation and stated that the
Office of Deputy Chief of Staff for Logistics is working with the Army Petroleum
Center and the DESC to correct the deficiencies. The Deputy further stated that
AR 710-2, “Inventory Management Supply Policy Below the Wholesale Level,”
October 31, 1997, is being updated with changes that will reflect guidance from
the Army Petroleum Center and DESC. The expected completion date is June
2003. In addition, the Deputy stated that the Army Petroleum Center is issuing
interim guidance to participating units as a Standard Operating Procedures Desk
Guide.

6. We recommend that the Chief of Naval Operations issue policy and
procedures to all Navy Aviation Into-Plane Reimbursement Card users
based on Commander, Naval Air Atlantic Instruction 7310.1W,
March 3, 1999, and include the guidance that the Defense Logistics Agency,
the Defense Energy Support Center, and the Services’ Petroleum Offices
developed based on Recommendations 1.a., 1.b., 1.c., 1.d., 3.a., and 3.b.
Navy Comments. The Deputy Assistant Secretary of the Navy Planning,
Programming, and Resources, concurred with the recommendation.

7. We recommend that the Air Force Deputy Chief of Staff, Installations and
Logistics update Air Force Instruction 23-202, July 19, 1994, and require
compliance with the policies and procedures that the Defense Logistics
Agency, the Defense Energy Support Center, and the Services’ Petroleum
Offices developed based on Recommendations 1.a., 1.b., 1.c., 1.d., 3.a., and
3.b.

Air Force Comments. The Assistant Deputy Chief of Staff, Installations and
Logistics concurred with the recommendation and stated that the Air Force will
publish interim operating procedures within 30 days of receipt of DESC interim
guidance. In addition, the Assistant Deputy stated that the Air Force will
implement final guidance DESC publishes through issuance of an Air Force
Instruction.



                                   22
8. We recommend that the Marine Corps Deputy Chief of Staff for Aviation
issue policies and procedures for use of the Aviation Into-Plane
Reimbursement Card and include the policies and procedures that the
Defense Logistics Agency, the Defense Energy Support Center, and the
Services’ Petroleum Offices developed based on Recommendations 1.a., 1.b.,
1.c., 1.d., 3.a., and 3.b.

Marine Corps Comments. The Marine Corps did not comment on a draft of this
report. We request that the Marine Corps provide comments on the final report.

9. We recommend that the Director, Defense Energy Support Center;
Director, Army Petroleum Center; Commander, Naval Petroleum Office;
and Director, Air Force Petroleum Office identify the taxes paid for FY 1999
through FY 2002 for which reimbursement claims have not been filed and
file for reimbursement as appropriate.

DLA Comments. The Director, Logistics Operations partially concurred with
the recommendation, however, did not provide any specific actions that will be
taken.

Audit Response. DLA comments are not responsive. We request DLA provide
additional comments in response to the final report. The comments should
identify specific actions that will meet the intent of the recommendation.

Army Comments. The Office of the Deputy Chief of Staff for Logistics did not
comment on Recommendation 9. We request that the Army provide comments on
the final report.

Navy Comments. The Deputy Assistant Secretary of the Navy Planning,
Programming, and Resources, concurred with the recommendation and stated that
DESC has an agreement with the Navy to file reimbursement claims on behalf of
the Navy and Marine Corps. In addition, the Navy recommended DESC take the
recommendation for action.
Audit Response. The Navy comments are partially responsive. The Navy has an
agreement with the DESC to file tax returns for Federal Excise taxes for FY 1999
through FY 2001. However, the Navy needs to identify a plan to file for taxes on
ground services and taxes from other categories. We request the Navy provide
additional comments in response to the final report. The comments should
identify specific actions that will meet the intent of the recommendation.

Air Force Comments. The Assistant Deputy Chief of Staff, Installations and
Logistics concurred with the intent of the recommendation, but he stated that the
Air Force Petroleum Office is not the appropriate Air Force agency to perform the
function. The Deputy Chief of Staff will coordinate with the appropriate Air
Force activities and identify which reimbursement claims have not been
submitted so that the claims can be filed.




                                   23
Management Comments on Management Controls and Audit
 Response
    DLA Comments. DLA, Director, Logistics Operations nonconcurred with our
    assessment that management control weaknesses exist. The Director stated that
    as noted in Recommendation 4., changes that will preclude overpayment in the
    future have been incorporated. In addition, the Director made reference to DLA
    comments on Recommendation 9., which state that DESC is responsible for the
    filing of taxes for product when funded by DESC.

    Audit Response. We do not agree with the Director’s comments. We believe
    that DLA needs to strengthen internal controls. In the response to
    Recommendation 4., the DFAS Deputy Director, Commercial Pay stated that
    ownership of AVEDS resides with DESC and that coordination was necessary to
    expand the edit check process. In addition, we believe that DLA must provide the
    specific actions that will be taken to address Recommendation 9.




                                       24
Appendix A. Scope and Methodology
   We reviewed guidance and procedures issued by OMB, GAO, and the Office of
   the Secretary of Defense that provides direction on financial management and
   controls, and Service regulations and instructions that should be used for
   purchasing aviation fuel at commercial airports, and for processing contractor
   invoices for payment. We analyzed OMB Circular A-123, GAO Policy and
   Procedures Manual, DoD Regulation 7000.14-R, Army Regulation 710-2,
   Commander Naval Air Atlantic Instruction 7310.1W, Navy and Marine Corps
   AIR Card Desk Guide, and Air Force Instruction 23-202.

   We evaluated the use of the AIR Card and the controls over processing
   reimbursement card payments. AVCARD issued 19,787 AIR Cards in FY 2001.
   We examined the DESC AIR Card program payment system and related internal
   controls, including certified vendor invoices for payment, recorded payments, and
   submitted interfund bills to the Services for FY 2001. Furthermore, we
   researched duplicate transactions for FY 2001, identified resulting overpayments,
   researched tax payments for FY 1999 through FY 2001, and identified taxes that
   were not filed for reimbursement. In addition, we interviewed personnel
   associated with the AVCARD fuel payment and reconciliation processes,
   including the Purple Hub, at DFAS, DESC, Service Petroleum Offices and
   Service organizations.

   We researched OMB, GAO, Office of the Secretary of Defense, and Military
   Departments policies and instructions. We analyzed guidance to the Military
   Departments on how to purchase aviation fuel at commercial airports and to
   process the contractor billing statements for payment. We evaluated the guidance
   to determine if it was adequate to ensure consistent validation of the AIR Card
   charges for aviation fuel.

   We selected and reviewed automated AVCARD billing data for FY 1999 through
   FY 2001. We used billing data for FY 1999 through FY 2000 to determine the
   amount of taxes paid. We reviewed detailed transaction information for FY 2001
   to determine the amount of taxes paid and to evaluate controls over using the
   AIR Cards as well as processing AVCARD billings. AVCARD processed
   217,485 transactions valued at $222.4 million in FY 2001.

   Through the use of data mining1 techniques, we analyzed transaction data and
   verified the payment process for each of the 24,959 fuel and ground service
   purchases valued at $37.3 million.

   We interviewed personnel responsible for developing and implementing DESC
   and Military Department guidance, including personnel from DESC; DESC
   San Antonio; DFAS Columbus; and U.S. Forces Command. We also interviewed
   personnel responsible for developing and using the Purple Hub system at DESC,

   1
    Data mining is a method of research that uses automated tools while searching for information in
    large databases.



                                              25
the Service Petroleum Offices, and the units. We also interviewed AIR Card
users to determine the processes for validating and paying the AIR Card fuel and
ground service charges at 17 sites: Fort Campbell, Fort Hood, Fort Stewart,
Hunter Army Airfield, Savannah Airfield, Navy Flight Demonstration Squadron,
North Island Naval Air Station, Oceana Naval Air Station, Training Wing Six,
Andrews AFB, Dyess AFB, Eglin AFB, March Air Reserve Base, McChord AFB,
Marine Corps Air Station Miramar, Marine Corps Base Camp Pendleton, and
Marine Corps Base Quantico. In addition, we interviewed AVCARD personnel
in Baltimore, Maryland.

The purpose of the judgmental sampling plan was to determine the amount of
transactions approved without reconciling receipt data to monthly bills. The
AVCARD database contained transaction information for customer units of the
Army, Navy, and Air Force during FY 2001. Marine Corps transactions were
listed as Navy transactions. The database included 217,485 fuel and ground
service transactions valued at $222.4 million for customers worldwide. Of those,
210,009 transactions valued at $212.7 million were for customers in the United
States.

We selected our judgmental sample by identifying the higher end users in the
United States. We refrained from visiting Air Force locations that had been
recently visited by the Air Force Audit Agency. In addition, we were unable to
visit sites where crews had been deployed because of operation Enduring
Freedom. Because of time restrictions, we selected sites in Virginia and
Maryland to cover the survey phase of the audit. We visited a total of 17 sites and
reviewed 24,959 AIR Card transactions valued at $37.3 million. Reviews of the
17 sites showed that 69 percent2 of 24,959 AIR Card receipts valued at
$37.3 million were never verified to monthly bills. See Appendix E for detailed
sample results.

We performed this audit from October 2001 through May 2002 in accordance
with generally accepted government auditing standards. We did not validate the
tax information received from AVCARD for FY 1999 through FY 2001. The
majority of potential duplicate transactions confirmed were for contract fuel that
DFAS Columbus paid. Non-contract fuel and ground services were paid for
through local DFAS offices. We visited only DFAS Columbus and were not able
to confirm the potential duplicate payments as duplicates at the local offices. We
did not validate or test the Purple Hub system.

Use of Computer-Processed Data. To achieve the audit objective, we
extensively relied on computer-processed data contained in the AVCARD Service
Card System. Through data mining techniques, we determined that the data did
not accurately reflect the source records. For example, we identified occurrences
such as:




2
    Judgment sample percentage does not generalize to universe.



                                             26
           •   records with the wrong ticket numbers,

           •   tickets billed to the wrong customer, and

           •   tickets billed twice.

    Although we did not perform a formal reliability assessment of the computer-
    processed data, we determined that the AIR Card transactions the Services paid
    generally agreed with the computer-processed data. We did not find errors that
    would preclude the use of computer-processed data to meet the audit objectives or
    that would change the conclusions in this report.

    Use of Technical Assistance. We received technical assistance from the
    Quantitative Methods Division, Audit Followup and Technical Support
    Directorate, Office of the Inspector General of the Department of Defense.
    Quantitative Methods personnel assisted in the judgmental sample used during the
    audit.

    General Accounting Office High-Risk Area. GAO has identified several
    high-risk areas in DoD. This report provides coverage in the Acquisition
    Management and Financial Management high-risk areas.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of controls over the issuance and use of AIR Cards at 17 sites; DFAS
    Columbus, Ohio; and DESC, Virginia. We reviewed FY 2001 annual statements
    of assurance for the Army, Navy, Air Force, Marine Corps, other Defense
    organizations, and the FY 2000 DoD-wide statement of assurance. We further
    reviewed management controls to evaluate the controls over validating AVCARD
    billings.

    Adequacy of Management Controls. We identified material management
    control weaknesses related to the AIR Card program the DoD Instruction 5010.40
    defines. Controls over the AVCARD billing validation process at most DoD
    organizations visited were not adequate to provide reasonable assurance that both
    sufficient and effective internal controls existed.

    Specifically, we verified that management control weaknesses existed with bill
    payers who were certifying and paying fuel and ground service transactions
    without reviewing supporting documentation to verify AIR Card charges. The
    bill payers certified the bills for payment without validating their accuracy. The
    supporting documentation needed to validate the bills was not maintained. In


                                         27
    addition, management control weaknesses prevented DFAS Columbus, DESC,
    and the Services from identifying overpayments that resulted from duplicate
    transactions, and from filing for reimbursement for taxes from which DoD may be
    exempt.

    Recommendations in this report, if implemented, will improve controls over the
    AVCARD validation process by assisting in ensuring that the billings are
    accurate; that transactions are not paid twice; that tax reimbursement claims are
    filed whenever appropriate; and that fraud and waste are kept to a minimum. In
    addition, Recommendations 2., 4., and 9., if implemented, could result in potential
    monetary benefits of at least $8.3 million. A copy of the report will be provided
    to the senior official responsible for management controls in the Army, the Navy,
    the Air Force, and DESC. See the Finding section for a discussion of the audit
    results.

    Adequacy of Management’s Self-Evaluation. The self-evaluations reviewed
    did not identify or report the material management control weaknesses related to
    the AVCARD process identified by the audit.


Prior Coverage
    During the last 5 years, no specific coverage on the AIR Card has taken place.
    However, the GAO and the Inspector General of the Department of Defense
    (IG DoD) have conducted multiple reviews related to the DoD purchase card
    program. GAO reports can be accessed on the Internet at http://www.gao.gov.
    IG DoD reports, including the four following reports with related coverage on
    credit cards, can be accessed over the Internet at
    http://www.dodig.osd.mil/audit/report.

IG DoD
    IG DoD Report No. D-2002-075, “Controls Over the DoD Purchase Card
    Program,” March 29, 2002

    IG DoD Report No. D-2002-065, “Summary of DoD Travel Card Program Audit
    Coverage,” March 18, 2002

    IG DoD Report No. D-2002-029, “DoD Purchase Card Program Audit Coverage”
    December 27, 2001

    IG DoD Report No. 98-189, “Procuring Fuel and Ground Handling Services at
    Commercial Airports,” August 18, 1998




                                        28
Appendix B. Army AVCARD Payment Process
   The AVCARD payment process, as observed during our visits to Army sites, was
   as follows. AVCARD processed all fuel and ground service charges made
   through the AIR Card. Charges for contract fuel, non-contract fuel, and ground
   services were billed and paid through two distinct processes.

   Receipts. After refueling or receiving ground services, the aircrew received a
   receipt for the transaction from the FBO. The aircrew certified the product or
   service delivery by signing the receipt. Generally, the aircrew would turn in the
   receipts at mission debriefs at flight operations. The receipts were sometimes
   carried from the debrief area to the logistics office or to the comptroller’s office,
   where they were filed. The receipts were not validated to monthly bills.

   Contract Fuel. AVCARD received billing information from the into-plane
   contractors, processed it, and forwarded it to DESC. The billing data were
   transferred electronically to the AVEDS. DFAS Columbus used AVEDS to pay
   the into-plane contractors on behalf of DESC. DESC then obtained any
   reimbursement from each Army unit in the form of interfund billings processed
   through DFAS Columbus. The Army units could receive interfund billing
   information through their local DFAS office in either printed reports or
   Web-accessed reports. Certifying officials were unaware that the reports existed.
   They were also unaware of the requirement to use receipt data and did not have a
   system to perform the reconciliation. See Figure B-1 for a flowchart of the Army
   payment process for contract fuel as observed during our visits.




                                         29
                     Figure B-1. Army AVCARD Payment Process for
                                       Contract Fuel

                      Aircrew Purchases
                        Contract Fuel


                          DESC                Original Receipt              Aircrew
                         Contractor

                         Receipt Data                                      Original
                      or DD Form 1898                                      Receipt


                         AVCARD                                        Flight Operations
                 -Validates Contract Number
    Payment                                                            Original Receipt
                 -Does Not Validate Price
                                                                       Stored at
                 -Data Entry
                                                                       Comptroller’s
                      Electronic                                       Office or at
                      Invoice Data                                     Logistics Office


                     DFAS Columbus
              (on behalf of DESC) (AVEDS)
              -Validates Contract                                Certifying officials did not
              -Validates Fuel Price                              know that interfund billing
                                                                 reports could be obtained and
                                                                 were not aware of the
                                                                 requirement to use receipt
                                              Payment            data for reconciliation.*



                                                                        Interfund Billing
                       Interfund                                             Report
                       Billing

                                                                          Local DFAS
                                                                      Office (on behalf of
                                                                        the Army Unit)



AVEDS Automated Voucher Examination Disbursing System
      Indicates Information Flow
      Indicates the Channel the Documentation Should Follow

*
 Indicates Area of Concern




                                               30
    Non-Contract Fuel and Ground Services. AVCARD paid all non-into-plane
    vendors for non-contract fuel and ground services. AVCARD then issued
    monthly billing statements to each Army unit. Certifying officials visually
    scanned the billing statements for any unusual charges and matched each charge
    against the training calendar to verify that the aircraft was at the stated location.
    Next, certifying officials filled out the appropriate forms to process payment
    through their local DFAS office. The certifying officials were unaware of the
    requirement to validate receipt data to the AVCARD billing statements and did
    not have a system to perform the reconciliation. See Figure B-2 for a flowchart of
    the Army payment process for non-contract fuel and ground services as observed
    during our visits.

                      Figure B-2. Army AVCARD Payment Process for
                          Non-Contract Fuel and Ground Services

           Aircrew Purchases
           Non-Contract Fuel
           or Ground Services


           Non-Contract Fuel
          and Ground Service           Original Receipt                 Aircrew
               Provider
                                                                        Original
                 Receipt                                                Receipt
Payment           Data
                                                                    Flight Operations
                AVCARD
                                                                Original Receipt Stored
          Processes all Billing
                                                                at Comptroller’s Office
          Data and Generates
                                                                or at Logistics Office
          Billing Statement
                                    Billing
                                  Statements
                                                          Certifying officials were not aware
                 Payment                                  of the requirement to use
                                                          receipt data for reconciliation.*


                                                                  Certified Billing
             Local DFAS
                                                                   Statement with
          Office (on behalf of
                                                                 Account Information
              Army Unit)

AVEDS Automated Voucher Examination Disbursing System
      Indicates Information Flow
      Indicates the Channel the Documentation Should Follow

*
Indicates Area of Concern



                                           31
Appendix C. Navy AVCARD Payment Process
   The AVCARD payment process, as observed during our visits to Navy sites, was
   as follows. AVCARD processed all fuel and ground service charges made
   through the AIR Card. Generally, each Navy unit generated obligations in
   preparation for fuel billings; however, instances existed when the unit generated
   the obligations after the fuels bills were posted. Charges for contract fuel,
   non-contract fuel, and ground services were billed and paid through two distinct
   processes.

   Receipts. After refueling or receiving ground services, the aircrew received from
   the FBO a receipt for the transaction. The aircrew certified the product or service
   delivery by signing the receipt. Generally, after returning from missions, the
   aircrews turned in all the collected receipts to the unit’s records keeper.

   Obligations. Generally, a unit’s records keeper established the corresponding
   obligations using receipt data. Various systems were used to post obligations,
   including the Aviation Storekeeper Information Tracking System and the
   Standard Accounting and Reporting System - Field Level. Obligations could also
   be kept in the Operations Target log, a manually created report that contains
   receipt information.

   Contract Fuel. AVCARD received billing information from the into-plane
   contractors, processed it, and forwarded it to the DESC. The billing data were
   transferred electronically to AVEDS. DFAS Columbus used AVEDS to pay the
   into-plane contractors on behalf of DESC. DESC then obtained reimbursement
   from each Navy unit in the form of interfund billings processed through DFAS
   Columbus. The Navy units received interfund billing information through their
   local DFAS office. The local DFAS office processed monthly interfund billing
   reports called Summary Filled Order/Expenditure Difference Listings and sent
   those reports to the Navy units. Summary Filled Order/Expenditure Difference
   Listings are listings that display itemized expenditures that differ from the value
   of the obligation established for a particular requisition. Summary Filled
   Order/Expenditure Difference Listings also include unmatched expenditures for
   which no obligation was found. Generally, the Navy units examined the monthly
   Summary Filled Order/Expenditure Difference Listings and compared those
   reports to their obligation logs to determine whether the charges were accurate.
   However, some of the aircrew did not turn in all their receipts. In those cases, the
   Navy unit created the obligations after the fact using the information in the
   Summary Filled Order/Expenditure Difference Listings report rather than the
   information on the original receipts the aircrew provided. See Figure C-1 for a
   flowchart of the Navy payment process for contract fuel as observed during our
   visits.




                                        32
                Figure C-1. Navy AVCARD Payment Process for
                                  Contract Fuel

                   Aircrew Purchases
                     Contract Fuel


                       DESC                 Original Receipt             Aircrew
                      Contractor

                      Receipt Data                                       Original
                   or DD Form 1898                                       Receipt


                     AVCARD                                           Unit’s Records
              -Validates Contract Number                                 Keeper
              -Does not Validate Price
Payment                                                             Logged Obligation
              -Data Entry
                                                                    ASKIT/STARS-FL
                   Electronic                                       Based on Original
                   Invoice Data                                     Receipt Data


                 DFAS Columbus
           (on behalf of DESC) (AVEDS)                          Certifying officials
           -Validates Contract                                  reconcile obligations with
           -Validates Fuel Price                                interfund billing report.


                                                                     Interfund Billing
                                                                          Report
                     Interfund                Payment
                      Billing
                                                                      Local DFAS
                                                                   Office (on behalf of
                                                                       Navy Unit)



ASKIT                 Aviation Storekeeper Information Tracking System
AVEDS                 Automated Voucher Examination Disbursing System
STARS-FL              Standard Accounting and Reporting System - Field Level




                                            33
   Non-Contract Fuel and Ground Services. AVCARD paid all non-into-plane
   vendors for non-contract fuel and ground services. AVCARD then issued
   monthly billing statements to each Navy unit. Generally, certifying officials
   verified and certified AVCARD billing statements for payment, validated fuel
   charges with the obligations previously logged, and filled out the appropriate
   forms to process payment through their local DFAS office. However, some of the
   aircrew did not turn in all of their receipts. In those cases, certifying officials
   created the obligations after the fact using the information in the AVCARD
   billing statement rather than the information on the receipts the aircrew provided.
   See Figure C-2 for a flowchart of the Navy payment process for non-contract fuel
   and ground services as observed during our visits.

                Figure C-2. Navy AVCARD Payment Process for
                    Non-Contract Fuel and Ground Services

            Aircrew Purchases
            Non-Contract Fuel
            or Ground Services


            Non-Contract Fuel
           and Ground Service             Original Receipt              Aircrew
                Provider
                                                                        Original
                  Receipt                                               Receipt
 Payment           Data

                                                                     Unit’s Records
                 AVCARD                                                 Keeper
           Processes all Billing
           Data and Generates                                    Logged Obligation
           Billing Statement                                     ASKIT/STARS-FL
                                                                 Based on Original
                                                                 Receipt Data
                                         Billing
                                       Statements

                 Payment                                     Certifying officials
                                                             reconcile obligations with
                                                             AVCARD billing statements.


              Local DFAS                                          Certified Billing
           Office (on behalf of                                    Statement with
               Army Unit)                                        Account Information


ASKIT       Aviation Store Keeper Information Tracking System
STARS-FL    Standard Accounting and Reporting System - Field Level



                                           34
Appendix D. Air Force AVCARD Payment
            Process
   The AVCARD payment process, as observed during our visits to Air Force sites,
   was as follows. AVCARD processed all fuel and ground service charges made
   through the AIR Card. Generally, the Air Force units did not use receipt data to
   generate obligations. Instead, obligations were set up based on past information.
   Charges for contract fuel, non-contract fuel, and ground services were billed and
   paid through three distinct processes.

   Receipts. After refueling or receiving ground services, the aircrew received from
   the FBO a receipt for the transaction. The aircrew certified the product or service
   delivery by signing the receipt. The aircrew then logged the receipt on Air Force
   Form 664, “Aircraft Fuel/Grounds Servicing Documentation Log.” The receipts
   were sometimes carried from a debrief area to the resource manager’s office
   where they were filed. Generally, the receipts were not validated with monthly
   bills.

   Obligations. The Air Force units did not generate obligations based on the
   information on the original receipts. Obligations were generally set up at the
   beginning of each period based on past information. For example, some units
   based obligation allocations on prior year flying hours.

   Fuel. During FY 2001, the Air Force paid aviation fuel out of the Air Force
   Working Capital Fund (AFWCF). The Detachment 3 Air Force Petroleum
   Office, Kelly AFB managed the AFWCF. Contract fuel and non-contract fuel
   were paid as follows:

          •   Contract Fuel. AVCARD received billing information from the
              into-plane contractors, processed, and forwarded to DESC. The
              billing data were transferred electronically to AVEDS. DFAS
              Columbus used the AVEDS to pay the into-plane contractors on behalf
              of DESC. Then DESC obtained reimbursement from the AFWCF.

          •   Non-Contract Fuel. AVCARD paid all non-into-plane vendors for
              non-contract fuel and ground services. AVCARD then separated fuel
              from ground services and billed the fuel to the AFWCF.

   In turn, each Air Force unit reimbursed the AFWCF in the form of interfund
   billings. The Air Force units received interfund billing information through their
   local DFAS office. The local DFAS office processed monthly billings and was
   able to provide the activities with monthly reports. Generally, certifying officials
   did not reconcile receipt data to billing reports. Air Force certifying officials
   cited lack of manpower resources as the reason for lack of reconciliation. See
   Figure D-1 for a flowchart of the Air Force payment process for contract and
   non-contract fuel as observed during our visits.




                                        35
                                Figure D-1. Air Force Payment Process for
                                       Contract and Non-Contract Fuel
             Aircrew Purchases                                                           Aircrew Purchases
               Contract Fuel                                                             Non-Contract Fuel


                 DESC              Original                                Original      Non-Contract Fuel
                                   Receipt          Aircrew                Receipt
                Contractor                                                                   Provider

                Receipt Data                         Original                                 Receipt
Payment      or DD Form 1898                         Receipt                                   Data             Payment



              AVCARD                                Debriefer                                 AVCARD
      -Validates Contract Number                                                        Processes all Billing
      -Does not Validate Price                      Original                            Data and Generates
      -Data Entry                                Receipt Stored                         Billing Statement
                                                  at Resource
               Electronic                       Manager’s Office
               Invoice Data
                                                                                  Billing
                                                                                Statements
              DFAS Columbus               Certifying officials did
      (on behalf of DESC) (AVEDS)         not reconcile receipt data
      -Validates Contract                 to billing reports citing lack
                                                                                              Payment
      -Validates Fuel Price               of manpower resources as
                                          the main reason.*


                                                Billing Report
          Payment
                    Interfund                    Local DFAS
                     Billing                  Office (on behalf of
                                               Air Force Unit)
                                                                            Interfund
                                   Payment                                   Billing


                                              Air Force Working
                                                 Capital Fund

AVEDS      Automated Voucher Examination Disbursing System

*
Indicates Area of Concern




                                                         36
Ground Services. AVCARD generated billing statements for all Air Force units.
Upon receiving the invoices, certifying officials signed the certification for
payment and attached the relevant accounting information to process payment
through their local DFAS office. See Figure D-2 for a flowchart of the Air Force
payment process for ground services as observed during our visits.

                   Figure D-2. Air Force Payment Process
                              for Ground Services

                Aircrew Purchases
                 Ground Services


                Ground Service         Original
                                       Receipt              Aircrew
                   Provider

                     Receipt                                Original
    Payment           Data                                  Receipt


                    AVCARD                                 Debriefer
              Processes all Billing
              Data and Generates                           Original
              Billing Statement                         Receipt Stored
                                                         at Resource
                                        Billing        Manager’s Office
                     Payment          Statements

                 Local DFAS
                                                   Certifying officials did
              Office (on behalf of
                                                   not reconcile receipt data
               Air Force Unit)
                                                   to AVCARD billing
                                                   statements citing lack
               Certified Billing                   of manpower resources as
                Statement with                     the main reason.*
              Account Information




*
Indicates Area of Concern




                                       37
Appendix E. Sample Results
      The following tables show contract fuel, non-contract fuel, and ground service
      transactions not properly reconciled or validated for payment.

           Table E-1. Contract Fuel Amounts Not Properly Reconciled
                                                          Transactions Not Reconciled
                 Site                         Total             Value        Percent
  Army
   Fort Campbell                            $02,015,780      $02,015,780      100
   Fort Hood                                  1,308,361        1,308,361      100
   Fort Stewart                                 163,344          163,344      100
   Hunter Airfield                              558,708          558,708      100
   Savannah Airfield                             48,070           48,070      100
    Subtotal                                $04,094,263      $04,094,263      100
  Navy
   Flight Demonstration Squadron                752,072               0         0
   North Island NAS1                          1,137,448         512,488        45
   Oceana NAS                                   190,976               0         0
   Training Wing Six                          2,597,590               0         0
    Subtotal                                $04,678,086      $0 512,488        11
  Air Force
   Andrews AFB2                               1,741,739        1,741,739      100
   Dyess AFB                                    975,680          792,690       81
   Eglin AFB                                    570,192          570,192      100
   March Air Reserve Base                       921,966          921,966      100
   McChord AFB                                8,817,650        4,261,250       48
    Subtotal                                $13,027,227      $08,287,837       64
  Marine Corps
   MCAS3 Miramar                              3,243,950        3,136,331       97
   MCB4 Camp Pendleton                          446,982          346,348       77
   MCB Quantico                                 309,437          309,437      100
    Subtotal                                $04,000,369      $03,792,116       95
      Total                                 $25,799,945      $16,686,704       65

  1
    NAS          Naval Air Station
  2
    AFB          Air Force Base
  3
    MCAS         Marine Corps Air Station
  4
    MCB          Marine Corps Base




                                             38
    Table E-1. Contract Fuel Receipts Not Properly Reconciled (cont’d)
                                                 Transactions Not Reconciled
                                                      Receipt
             Site                        Total           s          Percent
Army
 Fort Campbell                           3,190         3,190          100
 Fort Hood                               3,453         3,453          100
 Fort Stewart                              195           195          100
 Hunter Airfield                           781           781          100
 Savannah Airfield                         101           101          100
  Subtotal                               7,720         7,720          100
Navy
 Flight Demonstration Squadron             214             0            0
 North Island NAS1                         718           536           75
 Oceana NAS                                116             0           0
 Training Wing Six                       5,550             0            0
  Subtotal                               6,598           536            8
Air Force
 Andrews AFB2                              520           520          100
 Dyess AFB                                 196           157           80
 Eglin AFB                                 170           170          100
 March Air Reserve Base                    103           103          100
 McChord AFB                               719           347           48
  Subtotal                               1,708         1,297           76
Marine Corps
 MCAS3 Miramar                           1,634         1,566           96
 MCB4 Camp Pendleton                       869           710           82
 MCB Quantico                              336           336          100
  Subtotal                               2,839         2,612           92
    Total                               18,865        12,165           64

1
  NAS        Naval Air Station
2
  AFB        Air Force Base
3
  MCAS       Marine Corps Air Station
4
  MCB        Marine Corps Base




                                        39
           Table E-2. Non-Contract Fuel and Ground Service
                    Amounts Not Properly Validated
                                                      Transactions Not Validated
             Site                         Total           Value          Percent
Army
 Fort Campbell                          $01,081,174     $1,081,174        100
 Fort Hood                                  476,359        476,359        100
 Fort Stewart                               173,530        173,530        100
 Hunter Airfield                            237,054        237,054        100
 Savannah Airfield                           71,870         71,870        100
  Subtotal                              $02,039,987     $2,039,987        100
Navy
 Flight Demonstration Squadron             335,759              0          0
 North Island NAS1                         372,265         70,292         19
 Oceana NAS                                 25,307              0          0
 Training Wing Six                          17,546              0          0
  Subtotal                              $0 750,877      $0 70,292          9
Air Force
 Andrews AFB2                             2,851,183      2,851,183        100
 Dyess AFB                                1,025,784        906,083         88
 Eglin AFB                                  454,764        454,715        100
 March Air Reserve Base                     654,597        642,188         98
 McChord AFB                              2,645,728      1,459,545         55
  Subtotal                              $07,632,056     $6,313,714         83
Marine Corps
 MCAS3 Miramar                              347,271        286,069         82
 MCB4 Camp Pendleton                        180,543        180,543        100
 MCB Quantico                               560,427        310,405         55
  Subtotal                              $01,088,241     $0 777,017         71
    Total                               $11,511,161     $9,201,010         80

1
  NAS        Naval Air Station
2
  AFB        Air Force Base
3
  MCAS       Marine Corps Air Station
4
  MCB        Marine Corps Base




                                         40
           Table E-2. Non-Contract Fuel and Ground Service
                Receipts Not Properly Validated (cont’d)
                                                   Transactions Not Validated
                                                       Receipt
             Site                        Total            s           Percent
Army
 Fort Campbell                            944              944          100
 Fort Hood                                604              604          100
 Fort Stewart                             525              525          100
 Hunter Airfield                          196              196          100
 Savannah Airfield                        131              131          100
  Subtotal                              2,400            2,400          100
Navy
 Flight Demonstration Squadron                91             0           0
 North Island NAS1                           202            77          38
 Oceana NAS                                   51             0           0
 Training Wing Six                            62             0           0
  Subtotal                                   406            77          19
Air Force
 Andrews AFB2                           1,125            1,125         100
 Dyess AFB                                245              208          85
 Eglin AFB                                139              137          99
 March Air Reserve Base                   124              108          87
 McChord AFB                              616              363          59
  Subtotal                              2,249            1,941          86
Marine Corps
 MCAS3 Miramar                            232              196          84
 MCB4 Camp Pendleton                      293              293         100
 MCB Quantico                             514              280          54
  Subtotal                              1,039              769          74
    Total                               6,094            5,187          85

1
  NAS        Naval Air Station
2
  AFB        Air Force Base
3
  MCAS       Marine Corps Air Station
4
  MCB        Marine Corps Base




                                        41
Appendix F. Taxes Paid on AVCARD Charges
     The following tables show the breakdown of taxes paid for contract fuel as well
     as for non-contract fuel and ground services in FY 2001.

                   F-1. FY 2001 Taxes Paid on Contract Fuel
 Service Tax Description      Army              Navy        Air Force       Total

  Manufacturing Tax          $     346         $   3,689    $    4,790   $     8,825
  Federal Excise Tax         3,052,255         4,712,611     6,306,379    14,071,245
  Federal Excise Tax
   Non-Fuel                         233                0            32              265

    Total                   $3,052,834         $4,716,300   $6,311,201   $14,080,335




                                          42
     F-2. FY 2001 Taxes Paid on Non-Contract Fuel and Ground Services
  Service Tax Description        Army             Navy           Air Force          Total

Airport Head                      $       0       $      216     $         0    $       216
Canadian Goods and Services           7,532           55,956         395,023        458,511
Canadian Goods and Services
  Non-Fuel                          4,778           7,484           32,138          44,400
City                                  169             374            2,584           3,127
County                              2,551           1,344            1,239           5,134
Departure                             578           9,784           24,413          34,775
Duties                                  9          26,035            3,616          29,660
Federal Excise                    461,719         265,034        1,310,152       2,036,905
Hydro Carbon                            0             740                0             740
Local                                 566           9,709            6,950          17,225
Mineral Oil                           599           6,118           23,185          29,902
Other                              19,313          20,185           43,355          82,853
Other Non-Fuel                        122           (618)            3,222           2,726
Provincial                          1,151           4,336           16,950          22,437
Sales                             119,220          88,543          191,017         398,780
Sales Non-Fuel                      6,759          12,793           65,698          85,250
State Excise                       63,445          17,553          109,577         190,575
State Motor Fuel                       22               0                0              22
Total Value Added                   8,929          16,991          180,648         206,568
Total Value Added
  Non-Fuel                          2,289           5,140           11,274          18,703
Underground Storage                   338             236            1,548           2,122
 Total                           $700,089        $547,953       $2,422,589      $3,670,631

                        F-3. FY 2001 Total Taxes Paid
 Fuel and Ground Services       Army            Navy           Air Force         Total

Contract Fuel                 $3,052,834      $4,716,300       $6,311,201      $14,080,335
Non-Contract Fuel and
Ground Services                  700,089         547,953        2,422,589        3,670,631
   Total                      $3,752,923      $5,264,253       $8,733,790      $17,750,966




                                        43
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
     Director, Purchase Card Joint Program Management Office
     Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Director, Army Petroleum Office
Commanding General, Fort Hood
Commanding General, Fort Campbell
Commanding General, Fort Stewart

Department of the Navy
Commandant of the Marine Corps
Assistant Secretary of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Petroleum Office
Commanding Officer, North Island Naval Air Station
Commanding Officer, Pensacola Naval Air Station
Commanding Officer, Oceana Naval Air Station
Commanding General, Marine Corps Air Station Miramar
Commanding General, Marine Corps Base Camp Pendleton
Commanding General, Marine Corps Base Quantico

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director, Air Force Petroleum Office
Commander, Air Force Reserve Center, Robins Air Force Base
Commander, March Air Reserve Base




                                          44
Department of the Air Force (cont’d)
Commander, Andrews Air Force Base
Commander, Dyess Air Force Base
Commander, Eglin Air Force Base
Commander, McChord Air Force Base

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
   Director, Defense Energy Support Center

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          45
46
Department of the Army Comments




                    47
Department of the Navy Comments




                    48
49
50
Department of the Air Force Comments




                     51
52
Defense Logistics Agency Comments




                     53
     Final Report
      Reference




     Page 4




     Page 28




54
55
56
57
58
59
60
61
     Final Report
      Reference




     Page 13




     Page 16




     Page 16




     Page 17




62
Defense Finance and Accounting Service
Comments




                      63
64
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the Inspector
General, DoD, who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Evelyn R. Klemstine
Nancee K. Needham
Arthur J. Maurer
Ronald L. Rembold
Alejandra P. Rodriguez
Tracy L. Smelley
Steve Bennett




                                           65
